                                      /I

                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

11                                              CLOSEOUT NLEMORANDUM


                                                                                    I
                                      11

     Case Number: 1-01030004                                                                   Page 1 of 1



                             On March 7,2001, OIG received memo from Acting Division Director for
                             Human Resources Management (HRM) stating1-(hat                        a
                             temporary employee in the
                             was using his government visa to charge cal s ma e o a chat room during
                             business and non-business hours. When presented with the termination of
                             employment letter, r e s i g n e d on immediately.

           Based on the information received from HRM, there are apparent violations of 18 USC 5 641
           (Embezzlement and theft); and 18 USC § 654 (Conversion of Government Property); Virginia
           State Code 18.2- 197 (Criminally receiving goods and services fraudulently obtained); and '
           Virginia State Code 18.2-111 (Embezzlement deemed larceny).

           On June 13,2001, I A a n d m e t with D                      vm
                                                                         ei-c[t
           Police Department to f o ~ a l l refer
                                            y     the case to the department for disposition. The suspect was
           arrested 9/26/01 by -01ice                   Department at his home and released later on bail.
           Suspect remanded to P              D for prosecution. On December 7,2001,
           reimbursed the National Science Foundation $1553.53 (amount of funds diverted).

           On April 9,2002    rosecu cut or's Office declined to prosecute the case.
           Accordingly, this case is closed.




       Sign l date
                     --       Agent

                      Special Agent        '1
                                                          Attorney           Supervisor                 AIGI
